                       NATIONAL SCIENCE FOUNDATIULL
                         WASHINGTON, D.C. 20550




    Off ice of
Inspector General



MEMORANDUM
    DATE:    October   4.   3,993   rl


                                               -~
                                                -----   -       __
     VIA :

 SUBJECT: Allegation of
                              f
      TO:    Case No. I92090025

On October 13, 1992, we received an


projects and




                                                            -
equipment.
over several
We examined account summaries of seven of Dr            most recent
NSF grants. Though we did find some minor s           m funds among
several expense categories, the use of the funds was generally
consistent with the proposed budgets. We also interviewed by
telephone Dr                   a co-princi a1 investigator (PI) on
two of Dr.                        Dr. *tated           that she was
not aware                       es or behavior by Dr.           nor
had she heard of any improper actions. She stated that few people
would know more than she about Dr.           actions, by virtue of
her position as co-PI on his                      she doubted any
wrongdoing occurred.
As we found no evidence to substantiate the allegations of misuse
of funds and equipment or the exploitation of subordinates, and due
to limited investigative resources, further investigation of the
allegations is not warranted at this time.
This case is closed.
